No. 19AIN THE SUPREME COURT OF THE UNITED STATES

SANDRA R. AND SERGIO C.,
Petitioners-Appellants,

v.

ARIZONA DEPARTMENT OF CHILD SAFETY,
Responden t-Appellee.

APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI
TO THE ARIZONA COURT OF APPEALS

KRISTINA REEVES
Gillespie, Shields,
Goldfarb & Taylor
7319 North 16th Street
Phoenix, AZ 85020
Tel. (602) 870-9700
kreeves@gillaw.com
Counsel for Petitioners Sandra R. and
Sergio C.
RECEWED
OCT 2 9 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

r

TO THE HONRABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE NINTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5 and 30.2, Petitioners Sandra R.
and Sergio C. (collectively "Parents") respectfully request a 60-day
extension, up to and including January 4, 2020 to file a petition for a writ of
certiorari to the Arizona Court of Appeals.
1. Timeliness, Jurisdiction, and Opinion Below:
On April 20, 2018, a judge of the Superior Court of Maricopa County,
Arizona, ordered that Sandra R.'s parental rights to M.R., F.M., and J.M. be
terminated and that Sergio C.'s parental rights to F.M. and J.M. be
terminated. Parents timely appealed. The Superior Court's decision is
attached as Appendix A.
On January 29, 2019, the Arizona Court of Appeals issued its decision
affirming the termination orders. The Arizona Court of Appeals held that
J.M.'s injuries coupled with Parents' decision to marry instead of distance
themselves from each other supplied "reasonable evidence that supports the
juvenile court's determination that: (1) one or both parents willfully abused
2

J.M. by causing J.M.'s physical injuries; and (2) one or both parents failed to
protect J.M. after they knew or reasonably should have known J.M. had been
abused." The Court of Appeals issued their decision as a published opinion,
signaling that they intended for this interpretation of the statute to stand as
binding precedent in Arizona. The Court of Appeals' decision is attached as
Appendix B.
After the decision of the Arizona Court of Appeals, Parents timely
petitioned for review to the Arizona Supreme Court. On August 27, 2019,
the Arizona Supreme Court granted review as to an issue affecting only the
termination orders as to M.R. and F.M. Thus, on that date, the Arizona
Supreme Court denied review as the termination of Parent's parental rights
to J.M. The Arizona Supreme Court's partial grant and partial denial of
review is attached as Appendix C. Pursuant to this Court's Rules 13.1. 13.3,
and 30.1, petition for writ of certiorari would be due on or before November
25, 2019. Pursuant to Rule 30.2, this application for extension is being filed
more than ten days before that date. This Court has jurisdiction pursuant to
28 U.S.C. ยง 1257 (a).

3

2. Reasons for Granting the Extension.
Grounds for Granting the Writ of Certiorari Exist.
This case presents a federal issue worthy of presentation to this Court
in a petition for writ of certiorari. This Court has long recognized that a
parent's right to the custody of their child is a fundamental right that is
protected under the United States Constitution. Whether a state may
constitutionally terminate a parent's fundamental right to the care and
control of their child without a showing that the parent was unfit because
the parent actually knew or should have reasonably known that the child
was at risk of abuse and failed to protect the child from the abuse is a
question worthy of this Court's review.
The need for an extension of time.
The petition is currently due on Monday, November 25, 2019.
Undersigned counsel did not represent Parents in any of the proceedings
below. Parents signed a representation agreement with undersigned counsel
on October 18, 2019, leaving less than 40 days to review the case, the record,
and draft the petition for a writ of certiorari. Due to the voluminous record,
the complex constitutional issues at hand, and counsel's other professional

4

commitments, counsel requires additional time to adequately prepare a
fully-developed petition for writ of certiorari. An additional 60 days past the
current deadline of November 25, 2019 is thus required.
Accordingly, Petitioners respectfully request that an Order be entered
extending the time within which they may petition this Court for a writ of
certiorari for 60 days, up to and including Friday, January 4, 2019.
Respectfully Submitted,

Dated: October 24, 2019

KRISTINA REEVES
Gillespie, Shields, Goldfarb &
Taylor
7319 North 16th Street
Phoenix, AZ 85020
Tel. (602) 870-9700
kreeves@gillaw.com
Counsel for Petitioners Sandra R. and
Sergio C.

5

